IN THE
SUPREME COURT OF THE UNITED STATES
In Re: Petitioners/ Relators James Beggs and his Wife Joyce Beggs et ux
Ex Parte of “Said Veteran”
Ex Parte of “Said Child”
vs.
Respondents
Officers of the Courts
Virginia Beach Circuit Court
Cunningham Lindsey et al
PROOF OF SERVICE
Th ePetinoney^James Beggs Jn—and his wife Joyce
Beggs
______ j^/CZdo swear and declare that on this date November
2, 2020 Put forth an xtraordinary Writ of Habeas Corpus as Required by
Supreme Court under Rule 20; completed according to USSC New Covid-19
Guidelines including a filling fee of $300.00 sending to all Parties to the
above proceeding or that party’s Counsel of Record, with one copy to the
Virginia Beach Circuit Court, Hampton Circuit Court, United States
Courthouse of Virginia Easter Norfolk District Court of Newport News all
Parties and Respondents required to be served under 28 U. S. C. 2403 (a) and
the Solicitor General of the United States Room 5616 Department of Justice
950 Pennsylvania Ave., N. W. Washington, D C 20530-000 that the
Petitioners Request to take on these Complex Cases that Violations of Law
against the United States to Terrorize the Petitioners under the Patriot Act.
With copies sent to the Department of Justice for activity under USC 18
section 241 and 242, that voids Acts of Congress and Presidential Executive
Orders and Proclamation and Federal Programs under the Color of Law to
Decide said Complex Case in good faith to bring Social Justice and Equal
Justice Under Law for Petitioners and all Citizens in the Petitioners
Jurisdiction, with the Spirit of Virginia Founding Fathers and President
Abraham Lincoln. Proof of Service, with an Affidavit, given to all
Respondents an a ENVLOPE CONTAINING these DOCUMENTS IN THE
UNITED STATE SUPREME COURT delivery by a third-party commercial
Carrier within 3 days. With The facts contained in said Petitioners
Extraordinary WritLof Habeas Corpus are true ^fia)accur^e to the best of the
elief.
Petitioners’ knowflndee
Vp&eefare under
We James Beggs
d Joyce Begg!
a
oirectiend
to the foUowjp^ELy^X^
penalty of perjur^that the foregoing is true a
Executed on

69$___• By_S

beg#
7833698

2

a:

I

// I

Respondent
Paulette D. Franklin Jenkins
Tort Claim Unit Norfolk
9620 Maryland Ave.
Bldg A-50 Suite 205
Norfolk Va. 23511

First Attorney for Respondent Beverly Story
The Law Office of Eric O. Moody
2200 Dunbarton Drive Suit B
Chesapeake, Virginia 23325

A Former Employee Associate Virginia Beach
City Attorney

Respondent
Attorney Cynthia A. King
Past Guardian Litems For Lauryn
P. 0. Box 8483 Virginia Beach,
Virginia 23450

“Notes: This Attorney has been allegedly
Disbarred, but will serve her address
listing her as a Non- Interest Party,
sending it to her Address as required by
Supreme Court Rules”.

Respondent
Cunningham Lindsey U. S. LLC,
f/k/a Cunningham Linsey of Virginia Beach
Chad E. Kurtz, Esq.
Cozen O OCONNOR, P. C.
1200 19th Street NW, Suite 300
Washington DC 20036
Attorney Lori A. Butts
The Law Office of Eric O. Moody
On Behalf of Respondent
Beverly Story
Eric O Moody & Associates
355 Crawford Street, Suite 810
Portsmouth, Va. 23704

For Respondent Beverly Story

Attorney Nicole A. Belote
Of Kozak, Davis, Renninger & Belote P.C.
Guardian Litems For Lauryn
355 Crawford Street Suite 700
Portsmouth, Virginia 23704
Respondent
Attorney Asha Pandya
125 St. Paul BLVD. Suite 110
Norfolk, Virginia 23510

Replaced Guardian Litems for
“Said Child” for Respondent
Cynthia King

“Notes: This Attorney has asked me not to
serve her. I have list her as a Non- Interest
Party, sending it to her Address as
required by Supreme Court Rules”.

Attorney Afshin Farashahi
One Columbus Center Suite 604
Virginia Beach, Va 23462

Respondent awaiting Discretion to
said complex cases of this Court.

3

Attorney General William Barr
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, D C 20530-0001
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave.,
N. W. Washington, D C 20530-0001
Richard Ottinger
American Banker Insurance
Company of Florida “Assurant” DBA
Vandeventer Black LLP and it Agents
101 W. Main Street
5000 World Center
Norfolk, Va. 23501
Richard A Saunder, Esquire
Attorney for GEICO Insurance Agency, Inc. and Agents
6160 Kempsville Circle, Suite 341B
Norfolk, Virginia 2350
FEMA Office of Equal Rights,
500 C. Street S W, Room 617A
Washington, DC 20472
FEMA-Office of Equal Rights
ATTN: CIVIL RIGHTS TITLE VI PROGRAM
300 D St, SW, 8th floor
Washington, D.C. 20472-350
Chief Justice for Virginia Beach Circuit Court
For all Virginia Beach Court Systems
Clerk Office
2425 Nimmo PRWY
Richmond Virginia 23456
Respondent State Farm Insurance Company and Agents
1500 State farm Blvd
Charlottesville, Va 22909-005

4

Hampton Circuit Court
Chief Judge
237 N King Street
Hampton Virginia 23669
Walter E. Hoffman
United States Courthouse of Virginia Easter
Norfolk District Court of Newport News
600 Granby Street
Norfolk, VA 23510
Newport News United States District Court
2400 West Avenue
Newport News, VA 23607
Home Paramount Pest Control INC.
501 N Witchduck Rd,
Virginia Beach, VA 23462
Cornelius Beggs
Inmate# 16-009059
P.O. Box 6098
Virginia Beach VA 23456

We James Beggs^^wand Joyce Begg
penalty ofperjxj^y thattheioregoingis true ai

Subscribed and sworn to before me this

rect

leclare under
to the following:

3 day of

20lS)

£

'Hfiim mutt''

5

✓

